Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


     MEDICARE COMPLIANCE
    REVIEW OF CEDARS-SINAI
       MEDICAL CENTER
        FOR THE PERIOD
   JANUARY 1, 2008, THROUGH
         JUNE 30, 2011


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                               Assistant Inspector General

                                                        May 2013
                                                      A-09-12-02048
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Cedars-Sinai Medical Center did not fully comply with Medicare requirements for
 billing inpatient and outpatient services, resulting in overpayments of $2.2 million
 over 3½ years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year 2011, Medicare paid
hospitals $151 billion, which represented 45 percent of all fee-for-service payments; therefore,
the Office of Inspector General must provide continual and adequate oversight of Medicare
payments to hospitals.

Our objective was to determine whether Cedars-Sinai Medical Center (the Hospital) complied
with Medicare requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned. The DRG payment is, with certain
exceptions, intended to be payment in full to the hospital for all inpatient costs associated with
the beneficiary’s stay. CMS pays for hospital outpatient services on a rate-per-service basis that
varies according to the assigned ambulatory payment classification.

The Hospital is an acute-care hospital located in Los Angeles, California. Medicare paid the
Hospital approximately $1.37 billion for 66,467 inpatient and 574,807 outpatient claims for
services provided to beneficiaries during the period January 1, 2008, through June 30, 2011.

Our audit covered $5,590,434 in Medicare payments to the Hospital for 490 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 240 inpatient and
250 outpatient claims.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 81 of the 490 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 409 claims, resulting in overpayments of $2,244,649 for
the period January 1, 2008, through June 30, 2011. Specifically, 176 inpatient claims had billing
errors, resulting in overpayments of $1,869,455, and 233 outpatient claims had billing errors,
resulting in overpayments of $375,194. These errors occurred primarily because the Hospital did
not have adequate controls to prevent the incorrect billing of Medicare claims within the selected
risk areas that contained errors.



Medicare Compliance Review of Cedars-Sinai Medical Center (A-09-12-02048)                            i
WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $2,244,649, consisting of $1,869,455 in overpayments
        for the incorrectly billed inpatient claims and $375,194 in overpayments for the
        incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally agreed with our findings and
provided information on actions that it had taken or planned to take to address our
recommendations.




Medicare Compliance Review of Cedars-Sinai Medical Center (A-09-12-02048)                        ii
                                                     TABLE OF CONTENTS

INTRODUCTION .............................................................................................................................1

           Why We Did This Review .....................................................................................................1

           Objective ................................................................................................................................1

           Background ............................................................................................................................1
                 The Medicare Program ..............................................................................................1
                 Hospital Inpatient Prospective Payment System .......................................................1
                 Hospital Outpatient Prospective Payment System .....................................................1
                 Hospital Claims at Risk for Incorrect Billing ............................................................2
                 Medicare Requirements for Hospital Claims and Payments .....................................2
                 Cedars-Sinai Medical Center .....................................................................................3

           How We Conducted This Review..........................................................................................3

FINDINGS .........................................................................................................................................3

           Billing Errors Associated With Inpatient Claims ..................................................................3
                   Incorrect Billing of Part A for Beneficiary Stays That Should Have Been
                     Billed as Outpatient Services ..................................................................................4
                   Incorrect Billing for Patient Discharges That Should Have Been Billed
                     as Transfers .............................................................................................................4
                   Incorrect Diagnosis-Related Groups ..........................................................................5
                   Unreported Manufacturer Credits for Replaced Medical Devices ............................5

           Billing Errors Associated With Outpatient Claims................................................................5
                   Incorrect Billing of Healthcare Common Procedure Coding System Code
                     or Number of Units .................................................................................................5
                   Unreported Manufacturer Credits for Replaced Medical Devices ............................6
                   Incorrect Billing for Unlabeled Use of a Drug or Noncovered
                     Dental Services .......................................................................................................6

RECOMMENDATIONS ...................................................................................................................7

HOSPITAL COMMENTS ................................................................................................................7

APPENDIXES

           A: Audit Scope and Methodology ........................................................................................8
           B: Results of Review by Risk Area ......................................................................................10
           C: Hospital Comments ..........................................................................................................11



Medicare Compliance Review of Cedars-Sinai Medical Center (A-09-12-02048)                                                                        iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year 2011, Medicare paid
hospitals $151 billion, which represented 45 percent of all fee-for-service payments; therefore,
the Office of Inspector General (OIG) must provide continual and adequate oversight of
Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Cedars-Sinai Medical Center (the Hospital) complied
with Medicare requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review of Cedars-Sinai Medical Center (A-09-12-02048)                            1
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work identified these types of hospital claims at risk for noncompliance:

    •    inpatient short stays,

    •    inpatient transfers,

    •    inpatient claims billed with high-severity-level DRG codes,

    •    inpatient and outpatient claims paid in excess of charges,

    •    inpatient and outpatient manufacturer credits for replaced medical devices,

    •    outpatient claims billed for Lupron injections,

    •    outpatient surgeries billed with units greater than one, and

    •    outpatient claims billed with modifier -59 (indicating that a procedure or service was
         distinct from other services performed on the same day).

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, payments may
not be made to any provider of services or other person without information necessary to
determine the amount due the provider (the Act, § 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, § 20.3).

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Cedars-Sinai Medical Center (A-09-12-02048)                                           2
Cedars-Sinai Medical Center

The Hospital is an acute-care hospital located in Los Angeles, California. Medicare paid the
Hospital approximately $1.37 billion for 66,467 inpatient and 574,807 outpatient claims for
services provided to beneficiaries during the period January 1, 2008, through June 30, 2011. 2

HOW WE CONDUCTED THIS REVIEW

Our audit covered $5,590,434 in Medicare payments to the Hospital for 490 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
during the period January 1, 2008, through June 30, 2011, and consisted of 240 inpatient and
250 outpatient claims. We focused our review on the risk areas that we had identified as a result
of prior OIG reviews at other hospitals. We evaluated compliance with selected billing
requirements but did not use medical review to determine whether the services were medically
necessary. This report focuses on selected risk areas and does not represent an overall
assessment of all claims submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                  FINDINGS

The Hospital complied with Medicare billing requirements for 81 of the 490 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 409 claims, resulting in overpayments of $2,244,649 for
the period January 1, 2008, through June 30, 2011. Specifically, 176 inpatient claims had billing
errors, resulting in overpayments of $1,869,455, and 233 outpatient claims had billing errors,
resulting in overpayments of $375,194. These errors occurred primarily because the Hospital did
not have adequate controls to prevent the incorrect billing of Medicare claims within the selected
risk areas that contained errors. For a detailed list of the risk areas that we reviewed and
associated billing errors, see Appendix B.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 176 of 240 selected inpatient claims, which resulted
in overpayments of $1,869,455. Two claims contained more than one type of error.




2
    These data came from CMS’s National Claims History file.


Medicare Compliance Review of Cedars-Sinai Medical Center (A-09-12-02048)                        3
Incorrect Billing of Part A for Beneficiary Stays That Should Have Been Billed as
Outpatient Services

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)).

For 100 of 240 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that it should have billed as outpatient or outpatient-with-observation services. The
Hospital attributed the patient admission errors primarily to late night and weekend admissions
through the emergency department and insufficient case management staffing, which resulted in
a failure to review all accounts before billing Medicare. As a result of these errors, the Hospital
received overpayments of $1,116,401. 3

Incorrect Billing for Patient Discharges That Should Have Been Billed as Transfers

Hospitals must bill inpatient discharges as transfers when (1) the patient is readmitted the same
day to another hospital unless the readmission is unrelated to the initial discharge or (2) the
patient’s discharge is assigned to one of the qualifying DRGs and the discharge is to home under
a home health agency’s written plan of care for home health services that begin within 3 days
after the date of discharge (42 CFR §§ 412.4(b) and (c)). A hospital that transfers an inpatient
under the above circumstances is paid a graduated per diem rate for each day of the patient’s stay
in that hospital, not to exceed the full DRG payment that would have been paid if the patient had
been discharged to another setting (42 CFR § 412.4(f)).

For 56 of 240 selected claims, the Hospital incorrectly billed Medicare for patient discharges that
it should have billed as transfers to other facilities. 4 For these claims, the Hospital should have
coded the discharge status as a transfer to home under a written plan of care for the provision of
home health services or to an acute-care hospital. However, for a majority of these claims, the
Hospital incorrectly coded the discharge status as “discharged to home” or “left against medical
advice”; therefore, the Hospital should have received the per diem payment instead of the full
DRG payment. The Hospital stated that these errors occurred because (1) patients sought
alternative health care services at other facilities without the Hospital’s knowledge, (2) the
coding staff did not identify the disposition status information in the plan of care and the
physician’s final orders indicated the patient was to be sent home, or (3) the coding staff
incorrectly assigned the patient discharge status. As a result of these errors, the Hospital
received overpayments of $522,074.




3
  The Hospital may be able to bill Medicare Part B for some services related to some of these incorrect Medicare
Part A claims. We were unable to determine the effect that billing Medicare Part B would have on the overpayment
amount because these services had not been billed or adjudicated by the Medicare administrative contractor prior to
the issuance of our report.
4
    For one of these claims, the Hospital also billed Medicare with an incorrect DRG.


Medicare Compliance Review of Cedars-Sinai Medical Center (A-09-12-02048)                                         4
Incorrect Diagnosis-Related Groups

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)). The Manual states: “In order to be processed
correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 19 of 240 selected claims, the Hospital billed Medicare with incorrect DRGs. 5 For example,
for one claim, the Hospital billed a DRG for a ventricular shunt procedure with major
complication or comorbidities rather than billing the DRG for other disorders of the nervous
system with major complication or comorbidities. The Hospital stated that code assignment is
dependent on clear physician documentation. For a majority of the errors, physician
documentation in the medical records was not clear, and the coding staff made code assignment
decisions on the basis of the documentation at hand. As a result of these errors, the Hospital
received overpayments of $206,185.

Unreported Manufacturer Credits for Replaced Medical Devices

Federal regulations require a reduction in the IPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89(a)). The Manual states that to bill correctly for a replacement
device that was provided with a credit, hospitals must code Medicare claims with a combination
of condition code 49 or 50 (which identifies the replacement device) and value code FD (which
identifies the amount of the credit or cost reduction received by the hospital for the replaced
device) (chapter 3, § 100.8).

For 1 of 240 selected claims, the Hospital received a reportable medical device credit for a
replaced device from a manufacturer but did not adjust its inpatient claim with the proper
condition and value codes to reduce payment as required. The Hospital stated that this error
occurred because of lack of coordination between various departments. As a result, the Hospital
received an overpayment of $24,795.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 233 of 250 selected outpatient claims, which
resulted in overpayments of $375,194.

Incorrect Billing of Healthcare Common Procedure Coding System Code or
Number of Units

Medicare payments may not be made to any provider of services or other person without
information necessary to determine the amount due the provider (the Act, § 1833(e)). The
Manual states: “In order to be processed correctly and promptly, a bill must be completed

5
  For one of these claims, the Hospital also billed Medicare for a patient discharge that it should have billed as a
transfer to another facility.


Medicare Compliance Review of Cedars-Sinai Medical Center (A-09-12-02048)                                              5
accurately” (chapter 1, § 80.3.2.2). In addition, the Manual states: “The definition of service
units … is the number of times the service or procedure being reported was performed”
(chapter 4, § 20.4).

For 224 of 250 selected claims, the Hospital submitted claims to Medicare with the incorrect
HCPCS code or an incorrect number of units:

     •    For 219 claims, the Hospital billed Medicare with the incorrect HCPCS code.
          Specifically, the Hospital billed the incorrect HCPCS code for a drug available in two
          separate dosages, each assigned its own HCPCS code and separately packaged.

     •    For five claims, the Hospital billed Medicare with an incorrect number of units. For
          example, for one claim, rather than billing 1 unit for a procedure performed on the nose,
          the Hospital billed 76 units.

The Hospital stated that these errors occurred because the Hospital’s cancer center did not have
the charge code for the correct HCPCS code and the Hospital’s billing system failed to convert
charges for operating-room time to billable units. As a result of these errors, the Hospital
received overpayments of $346,380.

Unreported Manufacturer Credits for Replaced Medical Devices

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45(a)). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier -FB and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. 6

For 3 of 250 selected claims, the Hospital incurred no cost or received full credit for the
replaced device but did not properly report the -FB modifier or reduced charges on its
claims. The Hospital stated that these errors occurred because of lack of coordination
between various departments. As a result of these errors, the Hospital received
overpayments of $24,478.

Incorrect Billing for Unlabeled Use of a Drug or Noncovered Dental Services

CMS’s Medicare Benefit Policy Manual defines an unlabeled use of a drug as a use that is not
included as an indication on the drug’s label as approved by the Food and Drug Administration
(FDA) (Pub. 100-02, chapter 15, § 50.4.2). This section states that FDA-approved drugs used
for indications other than what is indicated on the official label may be covered under Medicare

6
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS. If the
provider receives a replacement device without cost from the manufacturer, the provider must report a charge of no
more than $1 for the device (CMS Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).


Medicare Compliance Review of Cedars-Sinai Medical Center (A-09-12-02048)                                        6
if the contractor determines the use to be medically accepted, taking into consideration the major
drug compendia, authoritative medical literature, and/or accepted standards of medical practice.

The Act states that no payment may be made under Medicare Part A or Part B for any expenses
incurred for items or services “where such expenses are for services in connection with the care,
treatment, filling, removal, or replacement of teeth or structures directly supporting teeth ...”
(§ 1862(a)(12)).

For 6 of 250 selected claims, the Hospital billed Medicare for services that were not
allowable for Medicare reimbursement. For five claims, the Hospital billed Medicare for
the unlabeled use of a chemotherapy drug without confirming with the Medicare
contractor that the unlabeled use was medically accepted. For one claim, the Hospital
billed Medicare for noncovered dental services (i.e., routine care, treatment, and removal
of teeth). The Hospital stated that these errors occurred because the billing system did
not prevent billing for the unlabeled use of a drug (five claims) and a billing system edit
to prevent billing for dental services was overridden (one claim). As a result of these
errors, the Hospital received overpayments of $4,336.

                                      RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $2,244,649, consisting of $1,869,455 in overpayments
        for the incorrectly billed inpatient claims and $375,194 in overpayments for the
        incorrectly billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                                     HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally agreed with our findings and
provided information on actions that it had taken or planned to take to address our
recommendations. The Hospital’s comments are included in their entirety as Appendix C.




Medicare Compliance Review of Cedars-Sinai Medical Center (A-09-12-02048)                           7
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $5,590,434 in Medicare payments to the Hospital for 490 claims that we
judgmentally selected as potentially at risk for billing errors. These claims had dates of service
during the period January 1, 2008, through June 30, 2011 (audit period), and consisted of
240 inpatient and 250 outpatient claims.

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements but did not use
medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from February 2012 to January 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for the audit period;

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for the audit period;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 490 claims (240 inpatient and 250 outpatient claims) for detailed
        review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been canceled or adjusted;




Medicare Compliance Review of Cedars-Sinai Medical Center (A-09-12-02048)                            8
    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;

    •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
        claims;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Cedars-Sinai Medical Center (A-09-12-02048)                        9
                       APPENDIX B: RESULTS OF REVIEW BY RISK AREA



                                                                                         Claims
                                                                       Value of           With
                                                        Selected       Selected          Billing         Value of
                   Risk Area                            Claims         Claims            Errors        Overpayments
Inpatient

Short Stays                                                171         $3,163,836          108               $1,120,404

Transfers                                                   61          1,472,884           61                  548,442

Claims Paid in Excess of Charges                             6            174,284             5                 141,366
Claims Billed With High-Severity-Level
                                                             1              43,405            1                   34,448
DRG Codes
Manufacturer Credits for Replaced Medical
                                                             1              32,364            1                   24,795
Devices
 Inpatient Totals                                          240         $4,886,773          176               $1,869,455



Outpatient

Claims Billed for Lupron Injections                        224           $508,013          224                 $292,979

Surgeries Billed With Units Greater than One                  5             45,546            5                   30,930

Claims Paid in Excess of Charges                              3             34,359            1                   26,807
Manufacturer Credits for Replaced Medical
                                                              3             38,732            3                   24,478
Devices
Claims Billed With Modifier -59                             15              77,011            0                          0

 Outpatient Totals                                         250           $703,661          233                 $375,194



 Inpatient and Outpatient Totals                           490         $5,590,434          409               $2,244,649

   Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
   outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
   billing errors we found at the Hospital. Because we have organized the information differently, the information in
   the individual risk areas in this table does not match precisely this report’s findings.




   Medicare Compliance Review of Cedars-Sinai Medical Center (A-09-12-02048)                                        10
                              APPENDIX C: HOSPITAL COMMENTS 





                                                        •

                                         CEDARS-SINAI HEALTH SYSTEM
                                                 Corporate Compliance
                                                                                 I




                                                                          April 15, 2013

            Lori A. Ahlstrand
            Regional Inspector General for Audit Services
            Office ofInspector General
            Office of Audit Services, Region IX
            90 - 71h Street; Suite 3 -650
            San Francisco, CA 94103

            RE: Draft Report - Medicare Compliance Review ofCedars-Sinai M edicaJ Centerfor the
            Period Januaty 1, 2008, Through June 30, 2011, dated March 27,2013 (A-09-12-02048)

            Dear Ms. Ahlstrand:

            We are responding on behalf of Mr. Thomas M. Priselac, President and ChiefExecutive Officer
            of Cedars-Sinai Medical Center.

            We have reviewed in detail your office's findings in the draft report. In general, we agree that
            409 ofthe 490 claims audited were found to contain some form oferror that affects
            reimbursement. We have begun and will continue the process to reimburse the full overpayment
            amount as detennined by your audit. We will also continue the process of strengthening billing
            controls to ensure compliance with Medicare requirements; many ofthese controls were actually
            initiated prior to this audit.

            We would also offer more specific comments and responses in regards to the following
            categories of findings:

            1) 	 Billing Err«s Assodated With Inpatient Claims:

               a) 	 Incorrect Billing ofPart A for Beneficiary Smys That Should HM'e Beell Billed as
                    Outpatient Services:

                   Co1mnent 011 Causes of Errors:

                   In addition to issues associated with late night and weekend admissions through the
                   Emergency Department, Cedars-Sinai has also experienced, in the past, issues in some
                   procedural areas where patient admissions, post-procedure, were not effectively managed
                   by knowledgeable case management staff. The actions described below are addressing
                   both these issues.


                                         8700 Beverly Blvd. • Los Angeles, CA 90048
                                         Office (323) 866-7875 • FAX (323) 866-7871




Medicare Compliance Review ofCedars -Sinai Medical Center (A-09-12-02048)                                      11
         2 I LTR. LORIA. AHLSTRAND (APRIL 15, 2013)

                   Ceda rs-Sinai's Corrective Ad.ic)n Pl an :

                   Priorto tins audit, Cedars-Sinai was well aware ofthe clinical and operational challenges
                   associated with patient classifications in the case short-stay patients admitted for needed
                   hos pital services. Over the course ofthe past three years, Cedars-Sinai has instituted the
                   following measures all aimed at strengthening billing control for s hort stay Pa11 A
                   Medicare claims:

                   • 	 In August of20 10, Cedars-Sinai began a robust program with Case Management and
                       Billing Compliance to review pre and post procedure patient class orders. The goal
                       was to review the orders againstlnterQua.l criteria as well as risk stratitication for
                       appropriateness for procedural patients. H'there was an issue with an order or class,
                       or tlie lack of a clearly documented order, then the case manager contacted the
                       physician and got proper orders prior to tlie patient being discharged. Some
                       specialized procedural areas such as the cardiac cath lab and intervention a! radiology
                       developed guides based on InterQual criteria (as well as the CMS inpatient only list)
                       to help physicians document proper orders on their patients. Additionally, several IT
                       systems were streamlined and s tandardized to help get orders and patient class
                       options aligned from scheduling to post-operative orders.

                   • 	 In September 2011 Cedars-Sinai contracted with the company Executive Health
                       Resources (EHR) to ass ist with second level case management reviews for our
                       Medicare patients admitted via the Emergency Department. Titey provide physician
                       level review against InterQual criteria as well risk stratification for our patients and
                       assist w ith obsetvation management as well. Regardless ofresource, whether intemal
                       Cedars-Sinai case management staff or ph ysicians or extemal consultants, Cedars­
                       Sinai is aware of the CMS condition code 44 requirements as well as lnterQual
                       guidelines and risk stratification and make admission decisions accordingly.

                   • 	 In February 2012 Cedars-Sinai created robust billing edits to catch accounts for
                       Medicare inpatients with a stay that is less than 24 hours in length for review prior to
                       billing for appropriateness of patient class. Accounts deemed to have etl'ors with
                       patient class are only billed for ancillary services on a TOB 121 per MAC directive.

                   • 	 In 2012 a case m anager was stationed in the Emergency Departmem to review all
                       orders .for admissions and observation for appropriateness and docum entation.

                   • 	 JnterQual criteria became electronically available to case managers and others in
                       2012 tliereb y facilitating their use for proper patient placement.

                   • 	 Finall y, Cedars-Sinai implemented a full electroni c health record (EPIC EMR)
                       including electronic physician order entry in 2012. We are no w able to better track
                       physicians' orders and changes to orders in the system. 1l1is greatly improves our
                       timeliness and efficiency in the review of patient class and medical necessity.




.Medicare Compliance Review ofCedars-Sinai .Medical Center (A-09-12-02048)                                        12
                                                                     LTR.LORI A. AHLSTRAND (APRi llS, 2013)       13

                b) Iucon-ect Billing for Patien t Discharges T hat Sh ould Have Been      Bille~
                   as TrausfeJ"s:

                   Comment ou Causes of E.-rors:

                   ln those cases where tl1e patient sought medical care at another facility or resumed home
                   care, there was a clearly documented plan of care for the patient to be discharged home
                   without services. In such cases, Cedars-Sinai is totally dependent upon notification by the
                   Medicare Contractor, or by the other facility, in order to bill with a proper discharge
                   status.

                   Cedars-Sinai 's Conecti,,e Adion Plan :

                   In addition to continuing to work with the Medicare Contractor to improve
                   communications regarding Common Working File edits, Cedars-Sinai has retained a
                   consultant who conducts analysis of and necessary follow-up on Medicare payments for
                   possible payment etTors, to include:

                   • 	 Unpaid or underpaid claims (or mnounts) including m1y m1d all deficienci es in
                       payments due to Medical Center fi·om the Medicare Part A or Part B programs, where
                       Medical Center's patient account for such claim has been closed or inactive (i.e.,
                       there has been no further insurance follow-up activity by Medical Center personnel)
                       for a period of 180 days or more. Unpaid or underpaid amounts do not include
                       additional amounts owed by individual patients.

                   • 	 Overpaid claims including any and all payments to Medical Center from the Medicare
                       Prut A or Part B Progrruns in excess ofwhat should have been paid, where Medical
                       Center' s patient account for such claim has been closed or inactive (i.e., there has
                       been no furtber insurance follow-up activity by Medical Center personnel) for a
                       period of 180 days or more.

                   • 	 Cedars-Sinai maintains an intemal Coding Compliance Audit team whose primary
                       objective is coding education and monitoring of coding quality. The Coding Audit
                       team perfonns monthly reviews of inpatient and outpatient claims to include but not
                       be Limited to DRG assignment, code selection, and discharge disposition. Patient
                       Fi nancial Services maintains a process in which each Medicare b1patient claim is
                       reviewed prior to billing in which the Medicare Direct Data Entry system is accessed
                       to review if there is indication of a secondary service claim. If a claim is identified,
                       the Cedars-Sinai claim disposition is updated to reflect the information. If a claim is
                       identified through the Common Working File edit notification, the claim is COJTected
                       per Medicare instruction ru1d re-submitted .




.Medicare Compliance Review ofCedars-Sinai .Medical Center (A-09-12-02048)                                             13
         41 LTR. LORI A. AHLSTRAND (APRIL 15, 2013)
                c) 	 Inconect Diagnosis-Related G1-oups:

                   Comments on Causes ofEn-01·:

                   To reiterate the OIG's findings, coding staff are fully dependent upon the completeness
                   and accuracy ofphysician documentation. 


                   Ceda r-s-Sina.i 's Cotrective Action Plan: 


                   Cedars- Sinai will take the following corrective actions regarding these errors: 


                   • 	 Provide additional education regarding sequencing and selection ofthe principal
                       diagnosis to coding staiT.

                   • 	 Address documentation opportunities with physician staff through the Clinical
                       D ocumenlalion Improvement Program. Improved, clear documentation of reason for
                       admission will assist coding staff in proper clinical selection ofthe principal
                       diagnosis.

                   • 	 Provide focused education on the selection of procedure codes in regards to the three
                       accotmts in which code assignment determined the DRG selection.

                   • 	 Provide additional education on secondary diagnosis code and the qualifying factors
                       for conditions to be coded as a secondary code.

                d) Unreported Manufacturer Credits for Replaced Medical Devic<'s

                   Conuncnt on Causes of Error:

                   No additional comment

                   Cedars-Sinai's Corrective Action Phm: 


                   Cedars Sinai will take the following corrective actions regarding these en·or'S: 


                   • 	 Interdepartmental communication has been streamlined among clinical services areas,
                       purchasing, accounts payable, and patient financial services (hospital billing). \\Then
                       credits are received, corrected billing occurs if initial claim has already been
                       submitted.

                   • 	 Claims logic was created to pull payment adjustment data into the claim per billing
                       guide! ines.

                   • 	 Additionally, on accounts where we know in advance from the clini cal department
                       that a device is a replacement, we have created claim logic to hold claims from initial
                       billing until credits are received .




.Medicare Compliance Review ofCedars-Sinai .Medical Center (A-09-12-02048)                                       14
                                                                        LTR.LORI A. AHLSTRAND (APRILlS, 2013)      Is
         2) 	 BilliJ1g EI'l'Ol'S Associated With Outpatien t C1aims:

            a) 	 Incon·ect. Billing ofHealthcare Common P1·ocedure C oding System Code O J' 

                 Numbe•· of Units: 


                Comment on Causes of Error- Procedure Code:

                Our own review of these accounts showed that while the patient was given ·the correct,
                ordered dosage, the account was charged with the incorrect HCPCS for Lupron. Charges
                were for 11950 (3.75mg) instead of .1 9217 (7.5mg). TI1is billing e1Tor resulted in an
                overpayment, as the payment rate fo r J 1950 is higher than that for 19217. TI1e
                overpayment ranged from $200.26 to $2029.53, depending on the dosage provided.

                Comment on Causes of Error- Number of Units (OR Time):

                TI1e issue of errors in number ofunits billed occurred because of the mmuter in which
                Cedars-Sinai charges for OR time. We charge one unit for the initial hour oftime, and
                then in subsequent minutes. ll1ese additional minutes are intended to C<>me <>ver into the
                billing system as a unit ofone. In March 2009 Cedm'S-Sinai converted its patient
                accounting system. Claims logic in the legacy system would automatically roll these
                additional units into a unit of one but that logic failed to migrate to production at the time
                of conversion into the new system . Tilis system error was quickly identified and
                corrected.

                Ceda r s-Sina.i 's C.)l'recti on At:tion l'lan- l'•·ocedure Code E rrm·s

                Cedars-Sinai had, in fact, initiated cotTected actions regarding this type of coding e1Tor
                prior to findin gs in the OIG audit.

                • 	 In August of2010, it was identified that the Cedars-Sinai cancer center did not have
                    but would now need the charge code for HCPCs J9217. Tllis change was
                    implemented on a go-forward basis. However, at that time, it was not kno wn that the
                    'itlCOtTect ' HCPCs had been used in the pas t. Thus, there were no itttemal audit
                    findi ngs o f incorTect coding prior to August 2010

                • 	 Fmther changes were made in September 2012 when the cancer center converted to
                    the electronic phannacy system, Will ow (m1 Epic product that is no w part of Cedat'S­
                    Sinai ' s electronic health record). Now, HCPCs codes that reside in that application
                    are sent through to the bill ing appl ication . All medications tbat are used at Cedars­
                    Sin ai are bu ilt int<> W illow that provides a robust system for cl inical care as we ll as
                    ' housing' HCPCs codes and base utlits .




.Medicare Compliance Review ofCedars-Sinai .Medical Center (A-09-12-02048)                                              15
         61LTR. LORIA. AHLSTRAND (APRIL 15, 2013)
                    Cedars-Sinai's Corrective Action Plan - Number· of Unit (OR Time)

                    As indicated above, the system issue associated with this en·or has been identil1ed and
                    resolved.

                b) Unreported Man ufactm·er C t-edits for Replaced Medical Devices

                    [See 1-d. above]

                c) Incorrect Bi1lin g for Unlabeled Use of a Dm g or Non covered Dental Services

                    Comment on Causes of En ·or:

                    No additional comment.

                    Cedars-Sinai's Conective Action Plan- Unlabeled Use of Drug

                    Cedars-Sinai phannacy personnel will continue to consult with physicians about what
                    drugs are considered off-label for certain conditions. Additionally, billing staff will
                    continue to review NCDs and LCDs for coverage detenninations and share them will
                    clinical pa.rtners if/when errant trends are identified. Stall' will also continue to use CMS
                    Contractor edits to know when certai11 medications may be considered off label and/or
                    not covered.

                    Ceda1-s-Sinai's Corrective Action Plan - Nouco,•ered Dental Services

                    Cedars-Sinai will continue to notify procedural areas, surgery schedulers, registrars and
                    physicians about services that are and are not covered by the Medicare program. Cedru·s­
                    Sinai will continue to rely on standru·d claim edits in the patient accounting system,
                    additional edits in the clearinghouse and CMS' DOE to identify such claims with non­
                    covered services.

            Finally, we would like to thank the OIG auditors who conducted the review ofCedru·s-Sinai
            Medicare claims for their professionalism, collegiality, and cooperation. Please contact David
            Blake at 323 -866-7875 or david.blake@lcshs.org with ruty questions you may have regarding our
            responses.

            Sincerely,


            /David C. Blake, PhD, JD/ 	                            /Patricia Emmett Kittell/


            David C. Blake, PhD, JO                                Patricia Em mett Kittel l 

            Vice President                                         Vice President 

            Chief Compliance & Privacy Officer                     Patient Financial Services 


            cc: 	          1110mas M. Priselac; President and CEO 

                           Edward Pnmchunas, Senior Vice President, Finance & CFO 





.Medicare Compliance Review ofCedars-Sinai .Medical Center (A-09-12-02048)                                          16
